H: T „

No.

6.

5184 ORIGINAL
Supreme Court, U.S.
FILED

JUN 0 2 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

0

■Ph&irYL__ — PETITIONER
(Your Name)
vs.

flhildrf/fc

SPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

c.

U-f? f'.n.A-

nP yAppgflk -

dirzurr

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR 3ASE)
PETITION FOR WRIT OF CERTIORARI

__E-li2abe4K Rxs-hv"
(Your Name)

(oPoi-n.\sT
(Address)

BrooklynJ (My llarw
(City, State, Zip Code)

f34T)5»7ff- 03 A1
(Phone Number)

OUESTIONYS) PRESENTED

1) Why did the District Court overlook the affidavit attached that showed proof
that Respondent had more than 15 employees for the purpose of Title VII?

2. Why did the District Court also overlooked the contract it had with ADP that
instituted more employees?

3. Why did the Respondent pay other employees on a separate corporate account
and those employees were not listed on their payroll records that was submitted to
the court?

4. Why did Respondent claim to have laid me off stating they were experiencing a
hard ship after their yearly financial statement for the relevant years did not
indicate they were experiencing a hardship?

5. Rule 60(b)(3) applied to Respondent for Fraud and it was not accepted by the
court and for what reason?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

.......cpcge (o

REASONS FOR GRANTING THE WRIT

...m* *

CONCLUSION......................................

....... i2-

Questions presented. • -..........

■ -f^ge 15

INDEX TO APPENDICES
APPENDIX A-.-page 17
APPENDIX B..
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

e 20

SUPREME COURT OF THE UNITED STATES
Elizabeth Pastor

CASE NO. USCA
Petitioner - Pro-Se.

vs.

PETITION FOR WRIT OF
CERTIORARI
Partner for Children’s Rights

Respondent

This is an appeal regarding the Petition for the Re-hearing that was
denied on May 18, 2021, from the United States Court of Appeals for
the Second Circuit. (Judge: Amon) (Judge: Bloom).
Respondent, Elizabeth Pastor, Pro Se Litigant files for a Writ of
Certiorari seeking to be re-heard and respectfully asking for
consideration on this matter.
The District Court erred in view of the facts of law by overlooking and
not considering the strong proof (Alvin’s Sworn Affidavit) that was
provided with evidence of Fraud when Respondent violated the la v RECEIVED
JUN - 8 2021
under Title VII and ADA. The courts denied my petition and alio1 v£4
ice of the clerk
SUPREME COURT. U.S.

±

the respondent to get away with an unlawful practice by committing
Fraud on its payroll records that appeared as if it had less than 15
employees for the purpose of Title VII. The attached (APPENDIX !|is
proof of the bookkeeper’s sworn affidavit that clearly states that
Partnership for Children’s Rights (PFCR) had more than 15 employees
under the radar. These other employees/volunteers/consultants were
compensated from their corporate account and not listed on their payroll
records that was submitted to the court. PFCR obviously knew how to
protect themselves from being sued under Title VII.
Alvin, the accountant, was employed for PFCR from an employment
agency and was aware of the additional employees. He signed the
attached affidavit under oath. This affidavit was also submitted to the
State Court, District courts as well as in the Petition to enlarge the files
in the State of NY Appellate Division Court. In the District court they
improperly granted the Motion to vacate Summary Judgment. The
Relief should have been sought then. This was clear to see and not
ambiguous. The courts refused to see and kept me from obtaining

z

information that was relevant such as tax record Forms NYS-45-ATT
where the number of employees in this tax section would be listed and
where names of employees existed. These documents were very
important in this case to prove there were more employees for the
purpose of Title VII. Respondent concealed these documents and had
other employees listed as opposed to only those on their payroll records.
And there were no questions of law asked by the lower court. This
information was needed to pursue my rights in a legitimate
discrimination case. The Respondent discriminated by favoring and
preferring younger white female employees to work for their
organization and educated them in NYU since they had a stipend with
NYU as well and only white females were favored. When confronting
respondent about their preference and asked why I was denied for a
position that was available twice throughout the relevant years when I
was more than qualified for the position, it resulted in retaliation and the
loss of my employment after 3 V2 years. I was the only Hispanic
employee fired and not considered for the position available. They
retaliated and the respondent claimed to have experience a hardship
3

when the hardship was in pretense to eliminate my position. I checked
their financial yearly reports that were public and saw they were in a
good standing position. The affidavit is proof as well as their yearly
financial reports. These documents were always submitted way before
we got to this point and lead to unnecessary motions and court
proceedings.
From the beginning stages of this case, I always mentioned that
respondent had more than 15 employees for the purpose of Title VII and
that they committed fraud. PFCR avoided mentioning other employees
that were not on payroll nor showed evidence how other employees
volunteers were compensated.
PFCR also had a co-employment relationship with another organization
(see APPENDIX8) In addition to the affidavit, PFCR had a co­
employment relationship with ADP and the court failed to recognize that
this constituted more employees. ADP with Partnership jointly hired me
and stipulated the terms of my employment. The District court should
have granted/considered the ADP Contract with Partnership that existed.

4

ADP records and Partnerships records should have the listing of all
employees and those that were assigned to work for Partnership. Again,
the lower courts overlooked these documents that mattered the most.
This was unfair and it violated my rights and it was injustice. The courts
allowed the Respondent to get away with not presenting more records
when I asked for more records to prove my case and the respondent
claim not to have these records. The District court failed to
investigate/apply the law and the facts upon making a decision. The
District Court accepted only the incomplete payroll records as true and
with no argument or hearing. They turned their heads on the proof that I
presented facts. They should have considered all the relevant documents
I submitted and circumstances surrounding the specifics before the court
in order ensured that justice be done. The Respondent are attorneys and
are knowledgeable of the law and know how to protect themselves under
the provisions of Title VII by keeping staff at a minimal.

5

Statement of the Case
On or about July 8, 2009,1, Elizabeth Pastor, Pro-Se Litigant filed a
charge of discrimination Retaliation, Disability, National Origin, and
Age discrimination with the EEOC. The EEOC determined that
Partnership was covered by Title VII of the Civil Rights Act because it
did not employ more than 15 employees for each working day in each of
the twenty or more calendar weeks in the current year.
Partnership for Children’s Rights (PFCR) did have more than 15
employees in the relevant years and calendar weeks.
At the time, the accountant named Alvin Tipton, stated in the attached
affidavit that the respondent had more than 15 employees than what
respondent listed on its payroll because they compensated other
employees from their corporate account vs. ADP Payroll. Those
employees were never listed to meet the threshold for the purpose of
Title VII. PFCR records were not accurate in the sense that they
falsified their records. Apparently, there was a miscount of the number
of employees employed by PFCR. The District Judge went by partial of
&

their payroll and overlooked the documents I submitted which was the
affidavit and the co-employment contract that they had with ADP that
also constituted more employees.
Their Financial yearly records indicated more employee expense in the
relevant years and that too was off and did not match with their payroll
expense amount nor the excuse to have experienced a hardship when
they decided to fire me and retaliate. The District Court Judge only
went by what respondent said. There was no substantial amount of
documentary evidence submitted from the other side to demonstrate the
number of employees that were really employed in the relevant years.
Especially when I was denied full discovery to be able to obtain more
the documents needed. The court decide to vacate the judgment right
away and it denied my petition with extraordinarily little observation.
They focused only on respondent’s documents.
Looking back, even if they decided not to dig further, the affidavit given
to me from the accountant says a lot.

7

Reason for Granting the Writ
This petition should be considered for these reasons mentioned above
and such names of the employees who constitute more employees for the
purpose of Title VII should have been revealed on its payroll but weren’t
because they were listed on the corporate account. The Affidavit was
mentioned numerous times and throughout the courts process and that is
considered Fraud. It was obvious and that the affidavit was strong
evidence that these documents fell into the Court Rules of 60b (1) and
(3). The Motion on Rule 60(b) regarding Fraud was timely, and the court
said it was wrong and did not consider it and for what reason. They
committed Fraud and the facts were there for the courts to read. The
court should be corrected on an error of facts and the denied decision of
my petition should be reversed. The procedures of rules seem to get in
the way, though my point was clear and this could have been prevented
if the correct law would have been applied.
This should be addressed to the District Court that rendered the
summary judgment in which injustice was done. This has been my

3

argument all along aside the fact that this case has merit when
respondent discriminated by favoring younger white female employees
instead.
When I returned from short term disability and in pretense, respondent
claimed to have had a hardship in the organization. I suspected that the
due to the confrontation before leaving out on short term disability, the
complaint about white employees being treated favorably, would cost
me my job.
I immediately reviewed their yearly financial records that were public
records, and each relevant year they were in an exceptionally good
standard. Their salaries and Fringe benefits paid to or given to everyone
had increased each year and there was no proof of hardship.
The courts focused on procedural matters and not the facts that were
presented. These confusing procedures and confusing Rules became
hurdles that were standing in my way but were not resolved on previous
motions with the facts presented.

1

I suffered a great deal, and it took me a long time to try to handle this
case on my own due to MDD -Major Depression Disorder in adults that
worsened as time went by. The stress and anxiety and depression caused
confusion, a lot of anxiety, difficulty concentrating and problems that
disrupted my daily activities due to being fired at no fault of my own.
The depression and illness left me financially poor which was very hard
for me to pay my bills, walk, go to work and accept the depression. For
the second time on record, I was able to speak and write about the
depression. I was in a deep denial about depression with family and
friends. The years of suffering and depression caused mental anguish. I
now have permanent nerve damage on my left leg and foot after surgery
when I was out on disability from PFCR. I was unable to afford safety
and health for myself and lost my medical insurance to where I was
unable to continue physical therapy after my surgery. Anxiety kicked in
and I also have high blood pressure that will consist of taking
medication for life. The depression kept me from enjoying life, visiting
friends and unable to adjust to society let alone track time for court rules
and remembering what was what.
to

My bills fell behind to where I received a court order from housing court
for nonpayment of rent and my credit score significantly dropped.
Basically, the one having the hardship was me. The confusion was like
living in a fog and representing myself was not easy. I cancelled many
medical visits worrying about paying expensive doctor bills and the
thought made me more depressed where I was unable to get out of bed.
One year or five years was meaningless without counsel to represent me
truthfully and in detail. I was denied counsel from the same courts and
was unable to afford counsel especially after losing my job. I waited to
see if there were any changes or amended laws and only recently learned
about the new law passed last year where Human Rights Laws consist
of one employee in an organization would be necessary to sue under a
legitimate discrimination claim.
Getting the incorrect information from the courts did not help either and
filing from court to court. The State Supreme Court, then District Court,
then the United States court, back to the Appeals all over again and back

-ii-

i

to the same court again, was the extraordinary circumstances that
happened in this case.
CONCLUSION
Based on the foregoing, Petitioner respectfully and in good faith request
the court to reverse and grant such relief as the court deems just and
proper. The Partnership for Children’s Rights was an employer within
the meaning of Title VII, ADA, and ADEA. After reviewing
everything, this case has merit and the signed affidavit by the accountant
stated clearly that PFCR employed more than 15 employees and had
more employees under a different corporate account as well as having a
co-employment contract with ADP that proves there were more
employees that they said, and Partnership is subject to liability under
Title VII.
The decision should be reversed because there were errors of facts, and
the evidence was never questioned nor applied to this case. The courts
should help those who take an inordinate amount of time to raise their
claims. The District Court deprived me from my rights, erred on the

\SL

evidence and I did not have the opportunity to really be heard. The facts
of this case is that Partnership for Children’s Rights committed the Act
of Fraud, concealed records and had it been investigated, the proper
legal decision would have been decided earlier in this case, I would have
never gone thru all these channels, unnecessary complications when the
facts are written in black and white. This makes the respondent liable
and dishonest. Therefore, this Court should grant my Petition of Writ of
Certiorari.

13

Dated: July 13,2021

Respectfully Submitted,

Ms. Elizabeth Pastor, Pro-Se Litigant
6801 -21st Avenue, Apt D4
Brooklyn, New York, 11204
cell: (347)-578-0323
Attorney for Respondent
Attorney for Jackson Lewis P.C
Michael A. Frankel
44 South Broadway, 14th floor
White Plains, NY 10601
(914) 872-8060

